        INSPECTOR GENERAL

                                                                 IG-U-042




        UNITED STATES INTERNATIONAL TRADE COMMISSION

                                  WASHINGTON, D.C. 20436



September 25, 1997

MEMORANDUM

TO:           Director, Office of Information Services

FROM:         Inspector   Gener~/Z~'H~
SUBJECT:      Inspection Report No. 04-97: Vulnerability Assessment of the Commission's
              Automated Information Systems

We initiated this inspection in August 1997 as a follow-up to the findings and
recommendations made in Audit Report No. IG-01-96, Audit of the USITC Local Area
Network Operations. That report identified weaknesses in the adequacy of the
Commission's Local Area Network (LAN) security.

Our objective was to assess the potential vulnerability of Commission automated
information systems to unauthorized access from external sites. We found that, within the
limited parameters of this assessment, we were unable to obtain unauthorized access to
the Commission's internal network through either the publicly accessible Internet gateway
or telephone connections. However, certain vulnerabilities were identified that could
potentially be exploited to obtain such access. The results of our inspection are
summarized below and presented in entirety in the vulnerability assessment transmitted
with this memorandum.

Background and Scope

Since 1988, the Commission has invested substantial resources to automate agency
functions and implement a LAN. As of September 1997, the Commission's LAN consisted
of 11 file servers running Banyan Vines 5.5; several special application servers, such as for
facsimile messages; and approximately 400 personal computers as work stations. The
LAN supports a variety of office automation functions, including word processing,
electronic mail, spreadsheets and end-user database applications. The system contains
unclassified as well as sensitive information, such as confidential business information.

The Office of Inspector General (DIG) contracted with the Computer Sciences Corporation
(CSC) to conduct a limited vulnerability assessment of the Commission's LAN. The
fieldwork was done from August 29 through September 2, 1997. CSC assessed the
vulnerability of the Commission firewall and surrounding computer components. CSC also
performed a "wardialinq" exercise against the Commission's telephone system to identify
weaknesses in access to the system through modems. These tasks were performed from
the CSC Commercial Laboratory site in Maryland using CSC proprietary and freeware tools.
The DIG provided CSC with the Commission's Internet Protocol addresses, the make of it's
firewall, and the range of telephone numbers assigned to the Commission. This
information was obtainable by CSC through other means, but for the sake of economy was
provided by the DIG.

Summary of Results

CSC's scan of the Commission's network identified seven hosts that linked the
Commission's automated systems with the Internet. A host is any machine with an
Internet address; hosts that are linked to a system provide a potential entry point. The
seven hosts identified were outside the firewall. CSC was unable to penetrate into the
Commission's internal network through the firewall. However, CSC did identify six
potential vulnerabilities surrounding the host machines.

The vulnerabilities provide no direct access route to the Commission's internal system,
although given the present state of the hosts and with a sufficient amount of time, an
intruder could probably obtain some form of unauthorized access, which is undoubtedly
true of any computer systems. According to DIS, the most serious threat would be
mutilation of the Commission's external Internet website and possible denial of access to
the Internet for Commission staff.

In the second phase of the vulnerability assessment, CSC attempted to access
Commission automated information systems through modems attached to various servers.
CSC identified 65 modems within the range of numbers we provided; 51 of these were
later found to be numbers no longer belonging to the Commission. The 14 lines belonged
to DIS or other offices, indicating that staff appear to be complying with Commission
policy prohibiting individual dial-in connections.

All of the modems were called back, and five of the fourteen Commission modems offered
a connection to login prompts. All five of these connections were to DIS-managed devices
which were specifically provided to allow staff dial-in access to Commission resources.
CSC made a very limited attempt to log on to the system by trying carriage returns and
some commonly used passwords, but was unsuccessful. A more serious effort to gain
access via the modems may have been successful.

Suggestions

We suggest that the Director of Information Services implement the recommendations
made on pages 4 and 5 of the vulnerability assessment report in order to more fully secure
the Commission's automated information systems.

The Director of DIS agreed to implement the recommendations in the report even though
the vulnerabilities do not constitute a significant threat. We agree with DIS that the
quality of the systems put in place to secure agency resources is such that implementing
the recommendations will improve security, but not substantially.

                                              2
The above procedures constitute an inspection made in accordance with the President's
Council on Integrity and Efficiency Standards for Inspections.

If you have any questions, please contact me on 205-2210.

cc: Commission




                                            3
International Trade Commission
Vulnerability Assessment Report



           September 8, 1997




      Computer Sciences Corporation
       Systems Engineering Division
        Technology Focus Center
         7459 Candlewood Road
           Hanover, MD 21076




        FOR OFFICIAL USE ONLY
                                                           Table of Contents

10VERVIEW                                                                                                                                        1

2 TOOLS                                                                                                                                          1

  2.1 Hydra •...............•..................................•............................................•.....•.•.....................•....... 1
  2.2 Strobe.....................................................•...•....•......................................•............................... 1
  2.3 Whois•.....................................................................................................•............................... 1
  2.4 Traceroute .....................................................................................•........................................ 1
  2.5 NSLookup..........................................................................................................•.................... 2
  2.6 Samba...•........................................................................................•.........................................2
  2.7 Netscape ..•..•..........•......................................................................•...............................•........ 2
  2.8 Toneloc.....••......•.....•...................................•....•.............................•....•..............................•.... 2

3 METHODOLOGY                                                                                                                                     2


4 RESULTS
                  ________________________________3

  4.1 Network Scan Summary........................................................•......•...................................•.... 3
  4.2 Network Scan Vulnerability Descriptions and Recommendations                                                                                 4
       4.2.1 Services Accessible from the Internet                                                                                                4
       4.2.2 VRFY Command Allowed                                                                                                                 4
       4.2.3 NT Guest Account Enabled with NULL Password                                                                                          4
       4.2.4 Vulnerable CGI Scripts                                                                                                               5
       4.2.5 Finger Services                                                                                                                      5
       4.2.6 Publicly Accessible News Server                                                                                                      5
  4.3 Wardialing .•••.•.•••••.••••....•••....••.••...•..•..•••••••••.••.•••...•..•..•..•••••••••..••..••.••••.•••••••.•••..•.•.•......••....•.. 5

5 SUMMARY                                                                                                                                         6




                                                         FOR OFFICIAL USE ONLY
                                                                   i
APPENDIX A: HYDRA OUTPUT                                                   7
APPENDIX B: FIREWALL STROBE OUTPUT                                         11
APPENDIX C: MODEMS/CARRIERS FOUND                                          12
APPENDIX D: REMOTE NT DIAGNOSTICS OUTPUT                                   14
APPENDIX E: "NPH-TEST-CGI" CGI EXPLOIT OUTPUT (LISTING HOME DIRECTORIES)   23




                               FOR OFFICIAL USE ONL Y
                                         ii
1     OVERVIEW
      This document describes the vulnerability assessment conducted by Computer Sciences
      Corporation (CSC) for the International Trade Commission (ITC), involving the lTC's firewall
      and surrounding computer components. CSC also performed a "wardialing" assessment
      against the ITC telephone system, The task was performed from the CSC Commercial
      Laboratory in Hanover, MD, using CSC proprietary and freeware tools.



2     TOOLS

2.1   Hydra
      Hydra is a esc proprietary software tool that is made up of several different programs, each
      of which performs a particular scanning or penetration task. The core programs are listed
      below:
      • Subscan - scans a range of IP address, and reports all existing devices, including hosts,
          routers, printers, and terminal servers.
      • Probe - checks devices discovered by Subscan for network vulnerabilities that lead to
          unauthorized access on the device.
      • Analysis - generates detailed vulnerability reports, using databases created by Subscan
          and Probe.                                                    ~



2.2   Strobe
      This tool scans a host for all activeTCP ports from 1 to 65535. It can provide information
      about what services are being offered by the host.


2.3   Whois
      This is an information service available on the Internetthat provides information about
      companies and domains that exist on the Internet. This information usually provides a list of
      DNS servers that the particular company or domain is served by.


2.4 Traceroute
      Traceroute is used to discover the network path from one host to another. It does this be
      having each host in the path return information back to the originating host, which gathers the
      information and displays it in a table showing IP addresses, host names, and response times.




                                       FOR OFFICIAL USE ONL Y
                                                 1
2.5   NSLookup
      NSLookup is a standard Unixtool usedto send host name queries to arbitrary Domain Name
      Service (DNS) servers. Provided that a server is not restricting accessto information,
      NSLookup can gathera list of all host names and their corresponding IP addresses within a
      particular DNS domain.


2.6   Samba
      Samba is a set of tools allowing access to Microsoft Network share resources. This tool can
      be used to read from or write to shared Windows NT file directories from a Unix platform.

2.7   Netscape
      Netscape is a World Wide Web (WWW) browsing client, and is used to examine WWW
      servers for vulnerabilities, including exploitable CGI scripts.


2.8   Toneloc
      Toneloc is a wardialer used to dial a large quantity of phone numbers in an attempt to
      discover modems.. The wardialing process involves the use of Toneloc, an automated
      software tool which uses the phone range parameters to dial all numbers in the designated
      range in a random pattern to identify modems within that range.



3     METHODOLOGY
      CSC used Hydrato scan the Demilitarized Zone (DMZ) of the ITC Internetpresence. This
      DMZ includes the premise router (that connects ITCto the Internet Service Provider), the
      firewall protecting ITC internal networks, and all hosts located on the LAN segment between.
      This LAN segment uses the 205.197.120 Class C IP subnet.

      CSC used Whois, Traceroute, and NSLookup to gather information about the ITC network
      connectivity to the Internet. This information can usually provide a starting point for attack and
      penetration efforts. For example, the Whois utilitywill provide the name of the DNS server for
      the ITC. NSLookup can then be usedto gathera list of publicly known ITC machines from the
      DNS server, and Traceroute can be used to discover the networkpath to the ITC firewall.

      Samba was used to attempt connections to any machines that were sharing out resources via
      5MB (Microsoft Network). It was usedto test account availability on NT machines, and to
      gatherNT Domain information about the machines. Strobe was used to gather a list of all
      active Tep ports on the firewall.

      Toneloc was used for the 'wardialing"analysis to dial all of the ITC phone numbers. The
      range of numbers are within the 202-205-xxxx range, and include 1800-2253, 2300-2399,
      2501-2599,2602-2699,2701-2799,3101-3399, and 3402-3499




                                        FOR OFFICIAL USE ONL Y
                                                  2
4     RESULTS

4.1   Network Scan Summary
      The Hydra scan of the 205.197.120 subnet identified seven hosts. The one host that it did not
      identify, however, was the firewall. Though Hydrawas able to see that the firewall was
      present, it was not able to run its normal scans against it. CSC used the Strobetool to probe
      the firewall for activeTCP ports. These portswere tested using a variety of adhoc methods,
      but any attempts at exploiting the firewall's services were unsuccessful. The table below
      indicates the potential vulnerabilities discovered on the other seven hosts, followed by
      descriptions of those vulnerabilities. Vulnerabilities within DMZ hosts can often lead to
      unauthorized access through a firewall, usually due to trust relationships between the firewall
      and the DMZ hosts.

                   Host Description                               Vulnerabilities
              205.197.120.1, probable              Telnet and Finger services are accessible
              Cisco router                         from the Internet, and NetBIOS
                                                   connections are allowed from the Internet.
              205.197.120.3                        The SMTP service supports the VRFY
              (net1.usitc.gov)                     command.
              as = unknown
              (seems to also go by
              net2.usitc.aov)
              205.197.120.5 (Errorl                The "guest" account seems to be enabled
              Reference source not                 with a NULLpassword, allowing the two
              found.)                              shared resources "columbia" and "heaven"
              as = Windows NT 3.51                 to be mapped remotely. The Event Log
              Windows name = ITC-                  and Diagnostics may also be viewed
              WEB                                  remotely as well.
              Windows domain =
              WEBSERVER
              205.197.120.17                       No vulnerabilities found.
              as = Windows NT 4.0
              Windows name = ITCDB
              Windows domain =
              WORKGROUP
              205.197.120.37                       A number of CGI scripts, available through
              (beardog.usitc.gov)                  the WWW server application, have
              as = SunOS 4.1.x                     vulnerabilities allowing remote browsing of
              (running NCSA v1.5.1                 the file system (but not the contentof
              WWW Server)                          actual files). The SMTP service supports
                                                   the VRFY command, and Finger services
                                                   are available.




                                        FOR OFFICIAL USE ONL Y
                                                  3
              205.197.120.86                         The SMTP service supportsthe VRFY
              (news.usitc.gov)                       command. The News services allow
              as = Windows NT 4.0                    connections and transactions from the
              Windows name = NEWS                    Internet.
              Windows domain =
              WORKGROUP
              (running Netscape Mail
              Server v2.0)
              205.197.120.222                        No vulnerabilities found.
              as = Windows NT 3.51
              Windows name =
              FIRSTSERVER
              Windows domain = OIS


4.2   Network Scan Vulnerability Descriptions and Recommendations

4.2.1 Services Accessible from the Internet
      A majorityof the machines within the DMZ are directly accessible from the Internet. The
      router between the DMZand the Internet Service Provider does no filtering of incoming
      connections.

      It is typically a good idea to have a premise router filterany unwanted connections before they
      reach the DMZ. If there is no needto allow incoming NetBIOS connections, that service
      should be disallowed at the router. Any other services not needing to be accessed from the
      Internet should be blocked as well (such as Finger and News).


4.2.2 VRFY Command Allowed
      The SMTP VRFY command allows remote users to query a mail host for valid mail account
      names. This can often be used to confirm or gathera list of potential target accounts on a
      machine.

      If the SMTP server software permits, the VRFY command should be disabled.


4.2.3 NT Guest Account Enabled with NULL Password
      Since the "guesf' account is a default account created during the initial installation of NT, it is
      often a target account for attacks. Someimplementations of NT, however, require the "guesf'
      account to exist and be enabled in order for certain services (such as WWW and FTP) to
      work properly. However, the "guesf' account can be usedthrough the NetBIOS protocol to
      gather information aboutthe server, such as beingable to browse through the Event Logs or
      the Diagnostics output.

      Whenever possible, the "guesf' account should be disabled, or given a password. In cases
      where the accountcan't be disabled, the premise router should block NetBIOS connections to
      the particular server that has the "guesf' account.

                                         FOR OFFICIAL USE ONLY
                                                   4
4.2.4 Vulnerable CGI Scripts
      A number of the sample CGI programs distributed with the NCSA 1.5.1 WWW Server
      application contain vulnerabilities that allow attackers to obtain directory listings of any
      directory within the server's file system. These CGI proqrams include"est-egi" and "nph-test-
      cgi".

      Any CGI programs not needed should be deleted, and patches applied to thosethat are
      needed.


4.2.5 Finger Services
      Finger is a servicethat allows remote usersto gather information about accounts on a system.
      Information about the account, such as the home directory, default shell, owner, and last login
      time and origin may be obtained. This information can be used to gather information about
      the accounts on a system, and provide starting information for an attack.

      The Finger service should be disabled from all DMZ machines.


4.2.8 Publicly Accessible News Server
      The News server in the DMZallows remote (non ITC) clients to connect and download (and
      possibly upload) articles from the server. Any ITC information on the server would be
      available to the Internet.

      The server should be configured to only allow connections from designated Internet hosts.
      Typically, only the main news feed site is allowed access from the Internet.


4.3   Wardialing
      The following table indicates the wardialing statistics gathered during the dialing vulnerability
      assessment.

                                                            Total                   Percent of Total
              Numbers Dialed                                1247                                 N/A
              Busy                                           66                               5.290/0
              Voice                                         485                              38.890/0
              RingOut (max rings = 7)                       383                              30.710/0
              Timeout (waittime 60                          248                              19.89%
              sec)
              Carriers Detected                              65                               5.21%

      All of the carriers found were called back, with the intentto exploitthe remote answering host.
      During the dial backs, esc was unable to exploit any of the carriers, but there was very little
      time available to work this potential area.. A number of the carriers found appeared to be
      Point-ta-Point dial-up servers, and NT Remote Access Servers (RAS).


                                         FOR OFFICIAL USE ONLY
                                                   5
5   SUMMARY
    CSC was unable to penetrate into the ITC internal network through the firewall. Though a
    number of the hosts within the DMZ had vulnerabilities that CSC could exploit, noneof those
    exploits resulted in privileged control of the machines. Given the present state of the hosts on
    the DMZ, and with a sufficient amount of time, it is probable that some form of access could
    be achieved. With that access, and intruderwould be able to set up a remote network packet
    sniffing program to gather information being passed between the ITC internal network and the
    Internet. It is therefore important that the DMZ hosts be secured.

    CSC'swardialing effortturned up a numberof modems attached to various servers that could
    potentially be exploited. A handful of carriers offered connection to login prompts. However,
    CSC was unable to guess any of the passwords or account named that would give access to
    the remote host.




                                      FOR OFFICIAL USE ONL Y
                                                6
